June 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, DC. 20543
Re:

Joseph R. Biden, Jr., et al. v. Sierra Club, et al., No. 20138 — Respondents’ Letter Brief in Opposition to Motion
To Vacate and Remand

Dear Mr. Harris:
Respondents respectfully submit this letter to the Court,
responding to and opposing Petitioner’s Motion To Vacate and
Remand.
National Office
125 Broad Street
18th Floor
New York, NY 10004
aclu.org
Deborah N. Archer
President
Anthony D. Romero
Executive Director

The government’s June 11 announcement that it will not
continue border wall construction—coming only after it already
completed construction of the wall sections contested in this
case—does not justify vacatur of the decision below. This Court
has never granted vacatur in such circumstances. The
announcement neither undermines a premise upon which the
decision below rests, nor alters a question the Court granted
certiorari to resolve—the only bases this Court has recognized as
warranting vacatur for changed circumstances.
Because the government concedes that its appeal does not
merit plenary review and has repudiated the claims it made in
support of its petition, the proper remedy is simple dismissal of
the writ. But a grant of vacatur under these circumstances
would be unprecedented and inequitable, and would effectively
allow the government, the losing party below, to reverse its loss
on the merits without pursuing appeal. Where a losing party
moots its own appeal by its own actions, it is generally
inequitable to grant vacatur. U.S. Bancorp Mortg. Co. v. Bonner
Mall P’ship, 513 U.S. 18, 27 (1994). Here, the government seeks
an even more inequitable result—vacatur of the decision against
it without either winning on the merits or rendering the dispute
moot. The Court should not allow the government to effectively
win its appeal without pursuing it.

1

STATEMENT
This case concerns the government’s diversion of $2.5
billion in funds appropriated for military purposes in Fiscal
Year 2019 to construct border wall projects that Congress
expressly refused to fund—at locations identified as “El Paso
Sector 1, Yuma Sector 1, El Centro Sector, and Tucson Sectors 13.” Mot. 5 (quoting Appendix for Petitioners at 187a–188a,
Donald J. Trump, President of the United States, et al. v. Sierra
Club, et al., 141 S. Ct. 618 (No. 20-138) (2020)) (“Pet. App.”). The
district court concluded that the government’s actions were
unlawful because these wall construction projects were
specifically “denied by Congress” and not an “unforeseen” need,
and thus failed to meet the express statutory requirements of
the authority the government had invoked to justify its
spending—Section 8005 of the 2019 Department of Defense
(“DoD”) Appropriations Act. Pet. App. 350a–357a. The district
court also noted that the government’s position raised serious
constitutional concerns under the Appropriations Clause and the
separation of powers. Id. at 357a–365a. On June 28, 2019, the
district court issued a permanent injunction barring
construction of the wall sections at issue here. Id. at 187a–188a.
It also issued a declaration that the government’s planned
construction was unlawful. Id. at 187a.
On July 12, 2019, the government filed a stay application
with this Court, seeking to spend the diverted funds and
construct the challenged wall sections while it sought review. In
support of its application, the government represented that
completion of these construction projects would not frustrate
Respondents’ ability to achieve relief. The government expressly
represented that retrospective relief, in the form of taking down
the wall, would be available, so that even if construction ended,
the case would not be moot. See Application of Petitioner for
Stay at 39, Donald J. Trump, President of the United States et
al. v. Sierra Club, et al., 140 S. Ct. 2620 (No. 19A60) (2020)
(“19A60 Gov’t Stay App.”) (asserting that “respondents’ interests
can be largely protected if they ultimately prevail—for example,
by the removal of any barriers found to be unlawful”); Reply
Brief of Petitioner at 14–15, Donald J. Trump, President of the
United States, et al. v. Sierra Club, et al., 140 S. Ct. 2620 (No.
19A60) (2020) (“19A60 Gov’t Reply Br.”) (asserting that
“respondents’ asserted injuries to recreational and aesthetic
interests in the areas where construction will occur could be
remedied at a later date, if respondents ultimately prevail”). The
2

Court granted the stay on July 26, 2019. 140 S. Ct. at 1. With
the stay in place, the government then spent the disputed funds,
and built the disputed projects. See Border Wall System, U.S.
Customs and Border Protection (Jan. 25, 2021),
https://www.cbp.gov/border-security/along-us-borders/borderwall-system.
On June 26, 2020, the court of appeals affirmed the
district court’s permanent injunction. Writing for the court,
Chief Judge Thomas found that Congress declined to
appropriate funds for the challenged border wall construction,
and that Section 8005 was inapplicable, and held that because
“the Executive Branch lacked independent constitutional
authority to authorize the transfer of funds,” the diversion of
$2.5 billion in funds was unlawful. Pet. App. 18a.
On July 21, 2020, Respondents filed a motion to lift this
Court’s stay, advising the Court that the government would soon
complete the disputed projects unless the stay were lifted.
Respondents’ Motion to Lift Stay at 18, Donald J. Trump,
President of the United States, et al. v. Sierra Club, et al., 140 S.
Ct. 2620 (No. 19A60) (2020) (“19A60 Mot. to Lift Stay”).
Respondents informed the Court that the government had
“already completed several of the projects enjoined as unlawful
by the District Court—El Centro 1 and Yuma 1 & 2,” and that
Customs and Border Protection officials had stated that the
remaining projects would be completed by the end of 2020. Id.
The government opposed Respondents’ motion, and on
July 31, 2020, this Court denied the motion to lift the stay. See
140 S. Ct. 2620. The government petitioned for certiorari on
August 7, 2020. The Court granted the government’s petition,
141 S. Ct. 618, and set the case for argument on February 22,
2021.
On January 20, 2021, long after the government had
already spent the transferred funds at issue here, President
Biden issued a Proclamation declaring that “[i]t shall be the
policy of [his] Administration that no more American taxpayer
dollars be diverted to construct a border wall.” 86 Fed. Reg.
7225. In subsequent months, long after the government built the
wall projects at issue here, DoD undertook several steps to cease
additional construction of other wall projects not at issue in this
case, Mot. 8–11, culminating in its June 11, 2021 announcement
3

that “[n]o new barrier construction work will occur on the DoD
projects,” id. at 11.
In the June 11, 2021 announcement of the cessation of
border wall construction using DoD funds, the government noted
that the construction projects had “diverted critical resources
away from military training facilities and schools, and caused
serious risks to life, safety, and the environment.” Department of
Defense and Department of Homeland Security Plans for Border
Wall Funds (June 11, 2021),
https://www.whitehouse.gov/omb/briefing-room/2021/06/11/factsheet-department-of-defense-and-department-of-homelandsecurity-plans-for-border-wall-funds/ (“Fact Sheet”). The
government further observed that “[b]uilding a massive wall
that spans the entire southern border and costs American
taxpayers billions of dollars is not a serious policy solution or
responsible use of Federal funds.” Id. Finally, the government
noted, as official government reports confirm, that “[m]ost
contraband is likely to come through legal ports of entry.” Id.;
see also Pet. App. 38a–39a & n.16 (observing that “the
Department of Justice’s own data” contradicted claims that a
border wall would further drug interdiction goals).
Later on June 11, 2021, the government moved for
vacatur of the Ninth Circuit’s opinion and remand. It asserted
that the court of appeals’ decision no longer “warrant[s] this
Court’s plenary review at this time in light of the greatly
changed circumstances,” Mot. 11, and requested that the lower
court decision be vacated without any finding of error or
mootness.
ARGUMENT
Respondents agree with the government that its appeal
does not merit plenary review at this time. The government no
longer maintains that “transfer of military funds to assist in the
construction of fences on the southern border to stanch the flow
of illegal drugs” is of national importance, or that the lower
court decision “interfere[s] with Executive Branch conduct that
is of importance to national security.” Petition at 17, Donald J.
Trump, President of the United States, et al. v. Sierra Club, et
al., 141 S. Ct. 618 (No. 20-138) (2020) (“Pet.”) (quotation and
alteration marks omitted). Instead, the government now
concedes that wall construction using diverted military funds is
“not a serious policy solution or responsible use of Federal
4

funds,” deprives the military of “critical resources,” and does not
effectively further the interdiction of contraband. Fact Sheet.
The lower court decision never created any circuit split. See
Opposition Brief of Respondents at 16–17, Donald J. Trump,
President of the United States, et al. v. Sierra Club, et al., 141 S.
Ct. 618 (No. 20-138) (2020) (“Respondents Br. in Opp.”). There is
thus no cause for the Court to review the lower court decision.
The Court should therefore dismiss the writ.
That the government has now repudiated the challenged
project and effectively concedes the lower court decision is not
cert-worthy, however, does not entitle it to vacatur. An
announcement that the government will not continue wall
construction—long after it already completed construction of the
wall sections at issue in this case after obtaining a stay to
permit it to do so—does not constitute a changed circumstance
warranting vacatur, as it does not establish a reasonable
probability that the lower court would have decided the case
differently had it been aware of recent developments. Nor does
the government’s announcement alter the purely legal questions
of statutory construction and availability of cause of action the
Court granted certiorari to resolve. It simply makes those
questions no longer necessary to decide.
Moreover, given that the government previously secured a
stay based on its representation that completion of construction
would not impede review, it would be inequitable to now grant
the government’s motion to vacate. A decision granting vacatur
under these circumstances would effectively grant the
government, the losing party, a victory without pursuing its
appeal on the merits. While vacatur is appropriate where
circumstances beyond the government’s control deprive it of the
ability to pursue an appeal, here it is the government’s own
actions that have led it to seek to have the case returned to the
lower courts. The government’s unilateral change in position
does warrant returning the case to the courts below—but the
proper way to do that is to dismiss its petition, not to grant the
government relief without even adjudicating the merits.
This Court has instructed that vacatur of a non-moot case
may be appropriate “[w]here intervening developments, or
recent developments that we have reason to believe the court
below did not fully consider, reveal a reasonable probability that
the decision below rests upon a premise that the lower court
would reject if given the opportunity for further consideration,
5

and where it appears that such a redetermination may
determine the ultimate outcome of the litigation.” Lawrence v.
Chater, 516 U.S. 163, 167 (1996) (per curiam). The threshold
requirement is a “reasonable probability” that a changed
circumstance undermines a premise on which the decision below
rests, so that the lower court should be given an opportunity to
reconsider the challenged holding. That standard is manifestly
not met here.
To begin, the government’s June 11, 2021 announcement
cannot constitute an “intervening development” with respect to
the wall sections at issue here, because it affects neither their
funding nor construction. Although the government attempts to
muddy the record, the “changed circumstances” it conjures
chiefly involve other construction projects and other sources of
funding, including diversions of military construction funds and
Section 284 construction projects using Fiscal Year 2020 funds.
Mot. 7–11. The wall projects at issue here, by contrast, are
largely or completely unaffected by the government’s
announcement for the simple reason that the money was long
ago spent and construction has long been completed. See Border
Wall System, U.S. Customs and Border Protection,
https://www.cbp.gov/border-security/along-us-borders/borderwall-system. Statements of intent about future funding streams
have no impact on funds already spent.
And even if the June 11 announcement were an
“intervening event,” it would not “reveal a reasonable
probability” that the court of appeals would now reject some
premise it relied upon in deciding the government’s appeal.
Nothing in the court of appeals’ analysis of the Trump
administration’s past diversion of funds turned on facts changed
by the Biden administration’s change of heart with respect to
other funds. The lower court’s conclusion that the government
lacked authority to spend $2.5 billion in Fiscal Year 2019 funds
to construct specific wall sections does not even arguably turn on
whether the government would ultimately complete each
challenged project, or only nearly complete them before
announcing that it would abandon course. The government’s
recent announcement thus does not plausibly undermine the
lower court decisions challenged here.
The cases the government relies on, Mot. 15–16, illustrate
that vacatur is appropriate on grounds that are lacking here: a
material change that reasonably calls into question a basis for a
6

lower court decision. In N.L.R.B. v. Federal Motor Truck Co.,
325 U.S. 838 (1945) (per curiam), N.L.R.B. v. Jones & Laughlin
Steel Corp., 325 U.S. 838 (1945) (per curiam), and N.L.R.B. v.
E.C. Atkins & Co., 331 U.S. 398, 401 (1947) (per curiam), the
courts of appeals had considered a National Labor Review Board
order authorizing the unionization of militarized employees
during wartime. In deciding the cases, the courts of appeals
were unaware that the employees at issue had recently been
demilitarized. Lacking that essential context, the Sixth Circuit
in the Federal Motor Truck and Jones & Laughlin Steel cases
had rejected the NLRB’s unionization order, ruling that “the
Board’s fatal error” was disregarding the militarized guards’
“paramount duty as militarized police of the United States
Government.” N.L.R.B. v. Jones & Laughlin Steel Corp., 331
U.S. 416, 420 (1947) (describing vacated Sixth Circuit holding).
The Seventh Circuit had reached a similar conclusion, holding
that militarized guards could not join a union because “[n]othing
should be permitted which will interfere in any degree or to any
extent with the obligation which these guards have with the
military.” N.L.R.B. v. E.C. Atkins & Co., 147 F.2d 730, 742 (7th
Cir. 1945), vacated, 325 U.S. 838 (1945). In its petitions for
certiorari, the NLRB informed the Court that the lower court
decisions did not account for the fact that the employees had
been demilitarized. 1 In all the NLRB cases, the lower court was
unaware of a material fact that might have affected their
decisions. The Court accordingly granted the petitions, vacated
the decisions below, and remanded to permit the lower courts to
consider in the first instance any effect of demilitarization on the
enforceability of the NLRB’s orders. See Federal Motor Truck
Co., 325 U.S. at 839; accord Jones & Laughlin Steel Corp., 325
The government incorrectly states that “after the NLRB
filed a petition for a writ of certiorari, the guards were
demilitarized by the War Department.” Mot. 15. In the Sixth
Circuit case, the guards were demilitarized in May 1944, before
both the court of appeals decision and the petition for certiorari.
See 331 U.S. at 420 (noting that the NLRB’s certiorari petition
“pointed out that the . . . employees had been demilitarized” on
May 29, 1944). The NLRB pointed out the material development
in the E.C. Atkins case in its petition as well. See N.L.R.B. v.
E.C. Atkins & Co., 331 U.S. 398, 401 (1947) (recounting that in
the NLRB’s 1945 “petition in this Court for a writ of certiorari,
the Board noted that the guard forces at respondent’s plants had
been demilitarized early in 1944”).
1

7

U.S. at 838; NLRB v. E.C. Atkins & Co., 325 U.S. 838 (1945) (per
curiam).
The government’s claim that “[t]he changed
circumstances here are no less significant than were the
demilitarization decisions in the NLRB cases,” Mot. 16., is
baseless. In the NLRB cases, the lower court decisions explicitly
rested on the “paramount” importance of the employees’ military
duties. Jones & Laughlin Steel Corp., 331 U.S. at 420. The fact
that the employees no longer owed any duty to the military thus
presented an “intervening development[]” that revealed “a
reasonable probability that the decision below rest[ed] upon a
premise that the lower court would reject if given the
opportunity for further consideration.” Lawrence, 516 U.S. at
167. Not so here. When the court of appeals issued its decision in
July 2020, the Court’s stay had been in effect for nearly a full
year and the wall project was nearing completion. And the court
of appeals’ legal analysis did not rest on the status of spending
or construction. Thus, there is no factual circumstance that the
lower court was unaware of that might have reasonably affected
the decision. No part of the court’s analysis turned on whether
the government would fully complete the wall sections at issue
as scheduled, or abandon them just shy of completion.
The only other precedent the government identifies,
Kiyemba v. Obama, 559 U.S. 131 (2010) (per curiam), is equally
inapplicable because there the question presented was no longer
live, and the changed circumstances altered an essential
premise of the decision below. The Court granted certiorari to
resolve “whether a federal court exercising habeas jurisdiction
has the power to order the release of prisoners held at
Guantanamo Bay” where “release into the continental United
States is the only possible effective remedy.” Id. (emphasis
added). As Justice Breyer noted, the question presented turned
on the absence of alternative remedies: The “Court initially
granted certiorari to resolve the important question whether a
district court may order the release of an unlawfully held
prisoner into the United States where no other remedy is
available.” Kiyemba v. Obama, 563 U.S. 954 (2011) (Breyer, J.,
Statement respecting denial of the petition for writ of certiorari).
That question was overtaken by events: “The Court
subsequently learned that each of the remaining petitioners had
received and rejected at least two offers of resettlement,”
demonstrating the availability of alternative remedies. Id. Thus,
although the Kiyemba litigation was not yet moot, the question
8

the Court granted certiorari to resolve effectively was. And the
premise of the lower court decision—the absence of any
alternatives—had been altered in a way that gave rise to a
reasonable probability that the lower court would decide the
case on different terms. That is not the case here, as the pure
questions of statutory construction and cause of action presented
in this case are not altered by the Biden administration’s
announcement.
Vacatur would also do nothing to “further[] fairness.”
Lawrence, 516 U.S. at 175. To the contrary, vacatur in these
circumstances would set a dangerous precedent. In seeking a
stay, the government assured the Court that completion of wall
construction would not bar judicial review or relief. See 19A60
Gov’t Stay App. 39 (asserting that “respondents’ interests can be
largely protected if they ultimately prevail -- for example, by the
removal of any barriers found to be unlawful”); 19A60 Gov’t
Reply Br. 14–15 (asserting that “respondents’ asserted injuries
to recreational and aesthetic interests in the areas where
construction will occur could be remedied at a later date, if
respondents ultimately prevail”). Yet the government now
announces that because construction is complete, review is
unwarranted—and that it should prevail, through vacatur,
without adjudication on the merits of its petition. Awarding the
government vacatur on this record, where its own actions have
led to the absence of any need for this Court’s review, would be
fundamentally unfair.
The government does not even suggest that the narrow
decision below will impede its ability to lawfully transfer funds
or engage in any other anticipated action. And to the extent that
the government believes that it would be appropriate and
equitable to modify the injunction based on its June 11, 2021
announcement, Mot. 13–14, there is—as it concedes—no
obstacle to seeking such relief from the district court in the first
instance, Mot. 13 (observing that “federal courts generally have
both the authority, and the responsibility, to modify equitable
relief in light of changed circumstances”) (quotation omitted)).
The government’s final argument—that denial of vacatur
would “forc[e] the Executive Branch to continue border-barrier
construction projects that it has formally determined are not in
the public interest simply to avoid the future legal consequences
of the decision entered by the court of appeals,” Mot. 19—is a
non sequitur. The projects at issue here have been built and the
9

funds have been spent; the government could no more continue
these border-barrier construction projects than it could eat the
same piece of cake twice. And again, to the extent it seeks relief
from the injunction, it can seek that on remand.
As the government agrees, this case is not moot. See Mot.
13. Thus, while the government is free to dismiss its appeal,
dismissal does not entitle it to vacatur—effectively a victory
without adjudication of its petition. “Congress has prescribed a
primary route, by appeal as of right and certiorari, through which
parties may seek relief from the legal consequences of judicial
judgments.” U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship, 513
U.S. 18, 27 (1994). “To allow a party who steps off the statutory
path to employ the secondary remedy of vacatur as a refined form
of collateral attack on the judgment would—quite apart from any
considerations of fairness to the parties—disturb the orderly
operation of the federal judicial system.” Id. Nothing prevents the
government from litigating in this Court its objections to the court
of appeals decision, save for its assessment that its appeal is no
longer worthy of the Court’s plenary review, Mot. 11. Under these
circumstances, dismissal of the appeal is warranted; vacatur is
not. 2

The government has not sought a Munsingwear
vacatur—nor could it, as the case remains justiciable. See
United States v. Munsingwear, Inc. 340 U.S. 36, 39–41 (1950).
But even if the government’s determination not to construct
additional wall sections were somehow capable of rendering this
controversy moot, “the Munsingwear procedure is inapplicable to
this case” because it is the government that has “declined to
pursue its appeal.” Karcher v. May, 484 U.S. 72, 83, (1987)
(denying vacatur following newly-elected legislators’ decision not
to continue previous officeholders’ appeal). It is the
government’s burden “as the party seeking relief from the status
quo of the appellate judgment,” to demonstrate “equitable
entitlement to the extraordinary remedy of vacatur.” Bancorp,
513 U.S. at 26. Its “voluntary forfeiture of review constitutes a
failure of equity that makes the burden decisive.” Id.
2

10

Respectfully submitted,
/s/ Dror Ladin
Dror Ladin
Counsel for Respondents
Cc: Elizabeth B. Prelogar, Acting Solicitor General, and all
counsel of record

11

